IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

No.

JOSHUA N. WRIGHT
PETITIONER,
VS
UNITED STATES OF AMERICA,

RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Title 18, United States Code Section 3006A(d)(6) and Rule 39 of this Court,

Petitioner, Joshua N. Wright asks leave to file the attached Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit without prepayment of fees or costs and to
proceed in forma pauperis. Petitioner was represented by counsel appointed pursuant to Title 18,
United States Code Section 3006A and F. R. Crim. Proc. 44 in the district court and on appeal to
the Fourth Circuit Court of Appeals.

Respectfully submitted,

QQ Ae

Alan H. Yamanjoto

643 S. Washington Street

Alexandria, VA 22314

(703) 684-4700
Counsel for Petitioner
